CERTIFICATE OF SERVICE
As required by Supreme Court Rule 29.5, I, Shay Dvoretzky, a member of the
Supreme Court Bar, hereby certify that all parties required to be served have been
served, and that one copy of the attached Application was served on November 26,
2019, via electronic mail and by United Parcel Service on:

Charles Cory Rush
KARCZEWSKI BRADSHAW SPALDING
3700 Buffalo Speedway
Houston, TX 77098
(713) 993-7060
crush@kbslawgroup.com
Counsel for Respondent

/s/ Shay Dvoretzky

November 26, 2019

Shay Dvoretzky
JONES DAY
51 Louisiana Ave., NW
Washington, DC 20001
(202) 879-3939
sdvoretzky@jonesday.com

3

